          Office of Inspector General




March 28, 2006

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

GEORGE L. LOPEZ
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Mail Transport Equipment Service Center Network –
         Highway Transportation Routes – Memphis (Report Number NL-AR-06-005)

This is one in a series of reports that presents results from our self-initiated nationwide
audit of the mail transport equipment service center (MTESC) network (Project Number
04YG003NL006).

The objectives of our audit were to determine whether management implemented audit
recommendations from our report, Mail Transport Equipment Service Center Decision
Analysis Report, Performance and Financial Benefit (Report Number TR-AR-01-003,
dated May 4, 2001), and whether there were additional opportunities to save money.
The report, initiated in response to a Board of Governors request, concluded the
network would not achieve the financial benefits anticipated by the 1997 Decision
Analysis Report. We recommended, in part, that management reduce cost by analyzing
transportation requirements and other costs associated with the network.

This follow-up report focuses on whether there were opportunities for the U.S. Postal
Service to save money by reducing the number of highway round-trips originating at the
Memphis MTESC. The Memphis MTESC provides service to mail processing facilities
in the Postal Service’s Southeast and Southwest Areas.

We concluded the Postal Service could save approximately $416,752 over the term of
existing contracts by canceling, not renewing, or modifying 25 round trips originating at
the Memphis MTESC. The Postal Service could eliminate the trips without affecting
customer service by consolidating loads to more fully utilize trailer capacity and by
stopping the inappropriate shipment of serviceable over-the-road (OTR) containers.
Further, we concluded that during 2004 and 2005, the Postal Service may have missed
an opportunity to save an additional $282,645 because management did not comply
with the Postal Service’s OTR container processing policy. These amounts represent
funds put to better use and questioned costs and will be reported as such in our
Semiannual Report to Congress. We recommended that management assess our
proposed trip eliminations, and cancel or modify the trips as indicated by the
assessment or document the reasons for retaining the trips.

Management agreed with our findings and recommendation. The Southeast Area
explained that in response to our recommendation, they had already assessed our trip
elimination proposals and made certain substitutions. They stated that based on their
additional analysis, they would increase the savings we identified and would implement
the changes no later than June 30, 2006. The Southwest Area stipulated that their trip
utilization data might be inaccurate, explained that to compensate, they would conduct
an on-site review to document actual utilization, and stated their on-site review would
begin March 20, 2006. Management’s comments and our evaluation of these
comments are included in this report.

The U.S. Postal Service Office of Inspector General (OIG) considers recommendation 1
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Joe Oliva,
director, Transportation, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI



for
Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Anthony M. Pajunas
    Dana L. Austin
    Paul J. McDermott
    Steven R. Phelps
Mail Transport Equipment Service Center Network –                       NL-AR-06-005
 Highway Transportation Routes – Memphis


                                       INTRODUCTION
 Background                    The mail transport equipment service center (MTESC)
                               network is a system of 22 contractor-operated service
                               centers designed to supply mailbags, carts, hampers, and
                               other mail transport equipment to mail processing facilities
                               nationwide. The service centers deliver equipment to users
                               with dedicated transportation.

                               The original plan to create the network was presented to the
                               U.S. Postal Service Board of Governors (BOG) in the
                               Decision Analysis Report (DAR), Mail Transport Equipment
                               Service Center Network, dated May 13, 1997. The DAR
                               forecast costs exceeding $3.6 billion over 10 years and the
                               BOG approved it in June 1997. The new network became
                               fully operational in January 2000. From the outset,
                               allegations of poor performance and excessive costs
                               troubled the new network. As a result, the BOG asked the
                               U.S. Postal Service Office of Inspector General (OIG) to
                               evaluate the program.



   The MTESC network has
          dedicated
       transportation.

    Our 2001 audit report
    identified $1 billion in
        potential MTE
     transportation cost
          overruns.

   This MTE tractor-trailer
    was photographed in
     April 2005 near the
     Memphis MTESC.




                               Our audit report titled Mail Transport Equipment Service
                               Center Decision Analysis Report, Performance and
                               Financial Benefit (Report Number TR-AR-01-003, dated
                               May 4, 2001) concluded the network would not achieve the
                               financial benefits anticipated by the DAR. We
                               recommended, in part, that management reduce cost by
                               analyzing transportation requirements and related costs
                               associated with the network.




                                                    1
Mail Transport Equipment Service Center Network –                                        NL-AR-06-005
 Highway Transportation Routes – Memphis


                                   Postal Service Headquarters implemented our
                                   recommendation and is aggressively pursuing opportunities
                                   to reduce MTESC network costs. Network Operations
                                   Management transportation assessment teams,
                                   supplemented by area personnel, are currently analyzing
                                   network transportation costs in order to reduce operating
                                   expense and improve efficiency.



     The MTESC network is a
           system of 22
        contractor-operated
     service centers designed
      to supply equipment to
     mail processing facilities
            nationwide.

    Photograph of the Memphis
       MTESC, April 2005.




    Objective, Scope, and          This audit is a follow-up to our May 4, 2001 report. Our
    Methodology                    objectives were to determine if management implemented
                                   our recommendations and whether there were additional
                                   opportunities to save money. This report focuses on
                                   Memphis MTESC transportation requirements. The
                                   Memphis MTESC provides service to mail processing
                                   facilities in the Postal Service’s Southeast and Southwest
                                   Areas.

                                   During our work, we interviewed Postal Service
                                   Headquarters officials in Network Operations Management
                                   and Supply Management. We also interviewed officials,
                                   managers, and employees in the Southeast Area,
                                   Southwest Area and at the Memphis MTESC.

                                   We used Postal Service computer-generated data to
                                   determine trip dispatch, arrival, and load efficiency and to
                                   identify potential trips for consolidation or elimination. 1 We
1
 Data Limitation - We did not audit or comprehensively validate the data; however, we noted several control
weaknesses that constrained our work. For example, the system had missing records and inaccurate trailer load
volumes. Even though data limitations constrained our work, we were able to partially compensate by applying
alternate audit procedures, including source document examination, observation, physical inspection, and discussion
with responsible officials. We also applied conservative principles to our monetary impact estimates and,
accordingly, always selected the most restrained assessment.



                                                         2
Mail Transport Equipment Service Center Network –                         NL-AR-06-005
 Highway Transportation Routes – Memphis


                               observed and photographed operations and examined
                               applicable Postal Service policies, procedures, and
                               directives. We consulted with statisticians and other
                               subject-matter experts. We also discussed our
                               observations and conclusions with management officials
                               and included their comments where appropriate. We
                               performed our work in close coordination with the Network
                               Operations Management transportation assessment team
                               and area personnel.

                               We conducted work associated with this report from
                               April 2005 through March 2006 in accordance with generally
                               accepted government auditing standards and included such
                               tests of internal controls as we considered necessary under
                               the circumstances.

 Prior Audit Coverage          Our report titled Mail Transport Equipment Service Center
                               Network – Equipment Processing (Report Number NL-AR-
                               05-006, dated March 31, 2005) concluded the Postal
                               Service saved more than $7.2 million in processing costs
                               from March 2002 through September 2004, in part because
                               headquarters took aggressive and positive action in
                               response to OIG recommendations. (See Appendix A.)
                               Our report also concluded that the Postal Service missed an
                               opportunity to save an additional $1.4 million because all
                               mail processing facilities did not quickly comply with
                               headquarters’ implementing instructions, and could still save
                               $628,000 over the next 2 years if all facilities implement
                               headquarters’ policy. We recommended management
                               reemphasize the over-the-road (OTR) container processing
                               policy. Management agreed with our recommendation and
                               issued additional instructions on March 23, 2005. (See
                               Appendix B.)

                               Our report titled Mail Transport Equipment Service Center
                               Network – Highway Transportation Routes – New York
                               Metro Area (Report Number NL-AR-05-014, dated
                               September 28, 2005) concluded the Postal Service could
                               save approximately $741,000 over the term of existing
                               contracts by eliminating 49 round trips originating at the
                               Long Island MTESC. The Postal Service could eliminate
                               trips without affecting customer service by consolidating
                               loads to more fully utilize trailer capacity and by stopping the
                               inappropriate shipment of serviceable OTR containers.
                               Further, we concluded that during 2004 and 2005, the


                                                    3
Mail Transport Equipment Service Center Network –                      NL-AR-06-005
 Highway Transportation Routes – Memphis


                               Postal Service may have missed an opportunity to save
                               about $285,000 because management did not comply with
                               the Postal Service OTR container processing policy. We
                               recommended Postal Service evaluate the 49 trips we
                               proposed for termination, terminate the trips, or document
                               the reasons for retaining the trips. Management agreed
                               with our recommendation.




                                                    4
Mail Transport Equipment Service Center Network –                         NL-AR-06-005
 Highway Transportation Routes – Memphis


                                       AUDIT RESULTS
 Highway Contract              The Postal Service could save approximately $416,752 over
 Management                    the term of existing Memphis MTESC highway contracts by
                               canceling, not renewing, or modifying 25 unnecessary round
                               trips. Further, the Postal Service may have missed an
                               opportunity to save an additional $282,645 because the
                               Memphis Bulk Mail Center (BMC) did not comply with the
                               OTR container processing policy. The affected trips
                               originated from and returned to the Memphis MTESC.

                               Postal Service policy requires transportation managers to
                               balance service and cost and precludes managers from
                               sending serviceable OTR containers to equipment service
                               centers. The Postal Service could eliminate the 25 trips
                               without affecting service because:

                                   •   Some trailer loads were not optimized and equipment
                                       could be consolidated on other trips.

                                   •   Some trips were scheduled primarily to return
                                       serviceable OTR containers the Memphis BMC
                                       inappropriately sent to the MTESC.




       The interior of an
     underutilized trailer
   arriving at the Memphis
           MTESC,
         April 5, 2005.




 Cooperative Effort            As a result of our continuing efforts to partner with and bring
                               value to the Postal Service, we had ongoing communication
                               with area officials throughout our audit and provided the
                               officials with a list of our specific trip proposals. We then
                               discussed our proposals and area operational needs with
                               officials and made appropriate adjustments. As a result of
                               our cooperative effort, area officials agreed to assess our


                                                    5
Mail Transport Equipment Service Center Network –                             NL-AR-06-005
 Highway Transportation Routes – Memphis


                                25 proposed trip eliminations. For additional detail see
                                Appendices C and D.

   These serviceable OTR
   containers were sent to
    the Memphis MTESC
        April 5, 2005.
     Postal Service policy
     precludes serviceable
     OTR containers from
     being returned to the
      MTESC. The policy
       stipulates that only
      containers requiring
   repair are to be returned.
      Trips scheduled to
      return serviceable
      containers are not
     needed and result in
         unnecessary
         expenditures.


                                In eight of the 25 cases, officials explained that trips were
                                needed to return serviceable OTR containers sent to the
                                MTESC by the Memphis BMC. However, Postal Service’s
                                March 2002 policy states that serviceable OTR containers
                                are to remain exclusively within the bulk mail center
                                network, and only containers requiring repair are to be
                                shipped to service centers. (See Appendices A and B.)
                                Our trip cancellation proposals are summarized below:

                                                     PROPOSED TRIP ELIMINATIONS
                                                      BY ELIMINATION CATEGORY

                                           ELIMINATION           NUMBER
                                            CATEGORY             OF TRIPS   APPENDIX    SAVINGS

                                   Proposed trip eliminations
                                   with which area officials
                                   agreed to assess.                17         C        $355,956

                                   Trips officials felt were
                                   needed to return
                                   serviceable OTR
                                   containers.                       8         D         $ 60,796

                                   Total                            25                  $416,752

                                                                Figure 1

                                During our on-site inspection from April 4 through 8, 2005,
                                we inspected 357 incoming OTR containers to determine
                                compliance with Postal Service policy. Only three required


                                                     6
Mail Transport Equipment Service Center Network –                                 NL-AR-06-005
 Highway Transportation Routes – Memphis


                               repair while 354 were serviceable and had been
                               inappropriately shipped to the MTESC for storage and
                               reissue.

                               Our examination of Postal Service records indicated that
                               from January 1, 2004, through October 13, 2005, the
                               Memphis MTESC operated at least 3,616 trips to return
                               OTR containers the Memphis BMC inappropriately sent to
                               the MTESC. As a result, the Postal Service may have
                               missed an opportunity to save more than $282,000 because
                               the BMC did not comply with headquarters’ OTR container
                               policy. See Figure 2 below.

                                   Unneeded Cost of Shipping Serviceable OTR Containers from the
                                              Memphis BMC to the Memphis MTESC

                                    Time Period          Number of         Cost Per    Missed Savings
                                                        Round Trips       Round Trip    Opportunity
                                    January 1,
                                     through
                                 November 26, 2004         1,750          $83.5954        $146,292

                                 November 27, 2004
                                      through
                                  October 13, 2005         1,866          $73.0724        $136,353

                                       Total               3,616                          $282,645

                                                               Figure 2

                               Although Network Operations Management officials
                               continually strive to optimize transportation with aggressive
                               cost-cutting efforts such as their MTESC network cost and
                               efficiency assessments, transportation requirements are
                               dynamic and constantly change. Based on our examination
                               of scheduled shipments and our physical examination of
                               trailer utilization for the proposed trip eliminations, we
                               continue to believe the potential for trip cancellation and
                               savings exists without jeopardizing service or operational
                               flexibility.

 Recommendation                We recommend the vice president, Southeast Area
                               Operations, coordinate with the vice president, Southwest
                               Area Operations, to:

                                   1. Assess the 25 proposed trip eliminations as agreed
                                      to by Postal Service management, and cancel or
                                      modify the trips as indicated by the assessment or
                                      document the reasons for retaining the trips.


                                                    7
Mail Transport Equipment Service Center Network –                        NL-AR-06-005
 Highway Transportation Routes – Memphis




 Management’s                  The Southeast Area agreed with our findings and
 Comments                      recommendation. They explained that in response to our
                               recommendation, they had already assessed our trip
                               elimination proposals and made certain substitutions. They
                               stated that based on their additional analysis, they would
                               increase the savings we identified and would implement the
                               changes no later than June 30, 2006.

                               Regarding the trips scheduled for returning serviceable
                               OTRs to the MTESC, the Southeast Area explained that
                               they were aggressively emphasizing headquarters OTR
                               policy to mitigate the need for such trips.

                               The Southwest Area agreed with the Southeast Area’s
                               comments. They stipulated that their trip utilization data
                               might be inaccurate, and explained that to compensate for
                               any underutilization perception caused by inaccurate data,
                               they would conduct an on-site review to document actual
                               utilization. They stated that their on-site review would begin
                               March 20, 2006, and that in addition to documenting actual
                               utilization, their review would focus on correcting any
                               deficiencies in the OTR process. Management’s comments,
                               in their entirety, are included in Appendix E of this report.

 Evaluation of                 Management’s comments are responsive to our findings
 Management’s                  and recommendation. We consider management’s actions,
 Comments                      taken or planned, sufficient to address the findings and
                               recommendation we made in our report.




                                                    8
Mail Transport Equipment Service Centers Network –           NL-AR-06-005
 Highway Transportation Routes – Memphis


                   APPENDIX A. OTR CONTAINER POLICY LETTER




                                                     9
Mail Transport Equipment Service Centers Network –        NL-AR-06-005
 Highway Transportation Routes – Memphis


         APPENDIX B. REEMPHASIS OF OVER-THE-ROAD CONTAINER
                           POLICY LETTER




                                                     10
Mail Transport Equipment Service Centers Network –                                                    NL-AR-06-005
 Highway Transportation Routes – Memphis


                   APPENDIX C. TRIP ANALYSIS DETAIL
 PROPOSED ELIMINATIONS POSTAL SERVICE MANAGEMENT AGREED TO ASSESS




                                                                                                                    OIG
                                                                                             Origination         Proposed         Total
Highway                                                                                           or               Weekly       Projected
Contract                                                                                     Destination        Round Trip      Savings
 Route                       Destination Point                         Contract Term         Trip Number        Eliminations   on Contract
 381AK        Nashville, TN Processing and Distribution Center                                  110                  1
 381AK        Nashville, TN Processing and Distribution Center                                  112                  1
 381AK        Nashville, TN Processing and Distribution Center                                  116                  1
                       TOTALS FOR Nashville P&DC                   11/27/2004 – 06/30/2006                           3          $122,764


 381AK        Memphis, TN Processing and Distribution Center                                    318                  1
 381AK        Memphis, TN Processing and Distribution Center                                    320                  2
 381AK        Memphis, TN Processing and Distribution Center                                    322                  1
 381AK        Memphis, TN Processing and Distribution Center                                    324                  2
 381AK        Memphis, TN Processing and Distribution Center                                    326                  2
 381AK        Memphis, TN Processing and Distribution Center                                    328                  2
                       TOTALS FOR Memphis P&DC                     11/27/2004 – 06/30/2006                           10         $106,393


 381AK     Memphis, Nashville Processing and Distribution Center   11/27/2004 – 06/30/2006      106                  1          $44,582


                    Memphis, Lindsey Road Annex, AR                                             724                  1
                    Memphis, Lindsey Road Annex, AR                                             728                  1
              Lindsey Rd Annex, AR/Memphis Mail Well Mailer                                     736                  1
 381AK             TOTAL FOR Lindsey Road Annex, AR                11/27/2004 – 06/30/2006                           3          $82,217


            TOTAL ELIMINATIONS FOR 381AK                                                                             17        $355,956



                                                                           11
Mail Transport Equipment Service Centers Network –                                                NL-AR-06-005
 Highway Transportation Routes – Memphis


                         APPENDIX D. TRIP ANALYSIS DETAIL
      PROPOSED OTR TRIP ELIMINATIONS POSTAL SERVICE MANAGEMENT AGREED TO
                                     ASSESS



Highway                                                                        Origination or    OIG Proposed
Contract                                                                        Destination     Weekly Round Trip   Total Projected
 Route              Destination Point                    Contract Term          Trip Number       Eliminations      Cost Avoidance
 381AK               Memphis BMC                     11/27/2004 – 06/30/2006        406                1
 381AK               Memphis BMC                     11/27/2004 – 06/30/2006        408                1
 381AK               Memphis BMC                     11/27/2004 – 06/30/2006        410                1
 381AK               Memphis BMC                     11/27/2004 – 06/30/2006        414                1
 381AK               Memphis BMC                     11/27/2004 – 06/30/2006        416                2
 381AK               Memphis BMC                     11/27/2004 – 06/30/2006        422                2
               TOTALS FOR BMC                                                                          8              $60,796




                                                                         12
Mail Transport Equipment Service Centers Network –         NL-AR-06-005
 Highway Transportation Routes – Memphis




                       APPENDIX E. MANAGEMENT’S COMMENTS




                                                     13
Mail Transport Equipment Service Centers Network –        NL-AR-06-005
 Highway Transportation Routes – Memphis




                                                     14
Mail Transport Equipment Service Centers Network –        NL-AR-06-005
 Highway Transportation Routes – Memphis




                                                     15
Mail Transport Equipment Service Centers Network –        NL-AR-06-005
 Highway Transportation Routes – Memphis




                                                     16
Mail Transport Equipment Service Centers Network –        NL-AR-06-005
 Highway Transportation Routes – Memphis




                                                     17
Mail Transport Equipment Service Centers Network –        NL-AR-06-005
 Highway Transportation Routes – Memphis




                                                     18
